Case 8:20-mc-00016-TGW Document 8 Filed 07/27/20 Page 1 of 3 PagelD 46
Case: 20-11725 Date Filed: 07/24/2020 Page: 1 of 2

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-11725-A
MARCO MANUEL TORRES,
Plaintiff-Appellant,
versus
PRESIDENT OF THE UNITED STATES,
UNITED STATES SENATE,
Defendants-Appellees.
Appeal from the United States District Court
for the Middle District of Florida
Before: GRANT, LUCK and LAGOA, Circuit Judges.
BY THE COURT:
This appeal is DISMISSED, sua sponte, for lack of jurisdiction. Marco Manuel Torres
appeals from the magistrate judge’s decisions directing the district court clerk to return his filings.
Because a magistrate judge’s decisions are not final and appealable orders until rendered final by
a district court, we lack jurisdiction to entertain this appeal. See 28 U.S.C. §§ 636(b)-(c) & 1291;
United States v. Renfro, 620 F.2d 497, 500 (5th Cir. 1980); Donovan v. Sarasota Concrete Co.,
693 F.2d 1061, 1066-67 (11th Cir. 1982) (explaining that a magistrate’s actions while proceeding
under § 636(b) “are not final orders and may not be appealed until rendered final by a district
court.”).

Case 8:20-mc-00016-TGW Document 8 Filed 07/27/20 Page 2 of 3 PagelD 47
Case: 20-11725 Date Filed: 07/24/2020 Page: 2 of 2

No motion for reconsideration may be filed unless it complies with the timing and other
requirements of 11th Cir. R. 27-2 and all other applicable rules.

2

Case 8:20-mc-00016-TGW Documents Filed 04/09/20 Page 1 of 1 PagelD 5

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION
MARCO TORRES
CASE NO. 8:20-mc-l 6-T-TGW

v.

DONALD TRUMP, et al.

ORDER
THIS CAUSE came on for consideration upon the submission
titled “A Writ of Objection to the Order that was denied on the 6th day of
March, by Thomas G. Wilson.” In accordance with the Orders issued in
cases 08-CV-1606-T-MSS (Doc. 7); 17-mc-15-T-23TGW (Doc. 3); and 20mc-16-T-TGW (Doc. 1), this submission is properly returned to the sender.
It is, upon consideration,
ORDERED:
The Clerk is directed to return this document to Marco Torres.
DONE and ORDERED at Tampa, Florida, this 9^ day of
April, 2020.
THOMAS G. WILSON
UNITED STATES MAGISTRATE JUDGE

Case 8:20-mc-00016-TGW Document 7 Filed 05/29/20 Page 1 of 1 PagelD 45

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION
MARCO TORRES,
CASE NO. 8:20-mc-16-T-TGW

v.

DONALD TRUMP, etal.

ORDER
THIS CAUSE came on for consideration upon the Motion for
Permission to Appeal In Forma Pauperis and Affidavit (Doc. 6). There is
no pending appeal (see Doc. 4, p. 1) and, as previously explained (see Doc.
1), there is no pending action in the district court.
It is, therefore, upon consideration,
ORDERED:
That the Clerk is directed to return this document to Marco
Torres and terminate the Motion for Permission to Appeal In Forma
Pauperis and Affidavit (Doc. 6).
%

DONE and ORDERED at Tampa, Florida, this -V? day of
, 2020.

THOMAS G. WILSON
UNITED STATES MAGISTRATE JUDGE

Additional material
from this filing is
available in the
Clerk's Office.

